<*
r

NO.
THE SUPREME COURT OF THE UNITED STATES
Term of the Court: October, 2020-2021
ALTON D. PELICHET
Petitioner,
-vsSTATE OF MICHIGAN
Respondent.
PETITION FOR WRIT OF CERTIORARI TO
THE MICHIGAN SUPREME COURT.
PROOF OF SERVICE
ALTON D. PELICHET, declares that on the

30th day of

April

2021 ,

he did serve one copy of Petition for Writ of Certiorari, Appendix,
Certificate of Mailing, Proof of Service, Motion for Leave to Proceed
In Forma Pauperis, and all other pertinent documents on the following:

MICHIGAN ATTORNEY GENERAL
G. Mennen Williams Bldg., 7th FI
West Ottawa Street
P.O. Box 30212
Lansing, Michigan 48909

Solicitor General
UNITED STATES OF AMERICA
Department of Justice - Rm 5614
950 Pennsylvania Avenue N.W.
Washington, D.C. 20530-0001

By mailing same, first class mail, with postage prepaid and
in accordance with the Expedited Legal Mail system of the Michigan
Department of Corrections, to the above addresses.
1

Alton D. Pelichet #148688
I declare under the penalty of perjury that the foregoing is
true and correct. Executed on April 30, 2021.

Alton D. Pelichet #148688

